                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office of Inspector General




                                                                   MA.R 	 2 0 Z010


Ms. Maryjean Buhler
Chief Financial Officer
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Ms. Buhler:

        The management letter related to the audit of the Broadcasting Board of Governors
(BBG) 2009 and 2008 financial statements (AUDIIB-I 0-19) is enclosed. The letter was prepared
by Leonard G. Birnbaum and Company, LLP (LGB), an independent external auditor, at the
direction of the Office ofInspector General (OIG). The letter discusses internal control
weaknesses and instances of noncompliance with selected provisions of applicable laws and
regulations that LGB identi tied during its audit of the financial statements, and it makes
recommendations in each case. These weaknesses, although of concern, did not rise to the level
necessary to be included in the report on the financial statement audit. LGB included BBG's
comments to the draft management letter in their entirety as Attachment 2 to the Enclosure.

       OIG will not track the recommendations made in the management letter through its
fonnal compliance process. However, the financial statement auditors will evaluate compliance
during future audits of the financial statements.

       If you or members of your staff have any questions, please contact me or Evelyn R.
Klemstine, Assistant Inspector General for Audits, at (703) 284-2604 or bye-mail at
klemstinee@state.gov. You may also call Gayle L. Voshell, Director of the Financial
Management Division, at (703) 284-2681.

Sincerely,




Harold W. Geisel
Depnty fnspector General

Enclosure: As stated.

cc: 	 Mary Kloss, Acting Financial Operations Director, Broadcasting Board of Governors
      Leslie A. Leiper, Leonard G. Birnbaum and Company, LLP
       Management Letter 

    Related to the Audit of the 

 Broadcasting Board of Governors 

2009 and 2008 Financial Statements 




        AUD/IB-10-19, March 2010




   Leonard G. Birnbaum and Company, LLP 

        Certified Public Accountants

            6265 Franconia Road 

         Alexandria, Virginia 22310

                               LEONARD G. BIRNBAUM                       AND   COMPANY, LLP
                                              CERTIFIED PUBLIC ACCOUNTANTS 

                                                        WASHINGTON OFFICE 

                                                       6285 FRANCONIA ROAD 

                                                     ALEXANDRIA, VA 22310-2510 



                                                           (703) 922-7622
                                                         FAX: {703l 922-8256
lESLIE A. LEIPER                                                                                           WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                     SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                        REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE
                                                     November 16,2009

        To the Chief Financial Otlicer
        Broadcasting Board of Governors:
       We have audited the financial statements of the Broadcasting Board of Governors (BBG) for the
       years ended September 30, 2009 and 2008, and have issued our report thereon dated November
       16,2009 (AUD/IB-10-04). In planning and performing our audit of the BBG financial
       statements, we considered BBG's internal control over financial reporting to determine our
       auditing procedures for the purpose of expressing our opinion on the financial statements and not
       to provide assurance on internal control. We have not considered internal control since the date
       of our report.
       During our audit, we noted certain matters involving internal control over financial reporting that
       we considered to be significant deficiencies under the standards established by the American
       Institute of Certified Public Accountants. We reported those deficiencies in the report
       referenced.
       Our audit procedures were designed primarily to enable us to form an opinion on the financial
       statements and therefore may not identify all weaknesses in internal control that may exist.
       However, we would like to take this opportunity to use our knowledge of BBG gained during the
       audit to provide comments and suggestions that we hope will be useful to you.
       Although not considered to be significant deficiencies, we noted certain matters involving
       internal control and other operational matters that are presented in the attachment to this letter for
       your consideration. These observations are intended to improve BBG's internal control or result
       in other operating etlieiencies.

       Comments by BBG management on this report are presented as Attachment 2.

       Very truly yours,

     ;;;;;"           ~ ~~,~ "-.\.q
                   '''-.?'">
       Leonard G. Birnbaum and Company, LLP~
       AttaclU11ents: As stated.




                                MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                                                                       Attachment 1
                                                                                         Page 1 of 3
                                  Management Letter Related to the 

                            Audit of the Broadcasting Board of Governors 

                                2009 and 2008 Financial Statements 


                                   Observations and Conclusions

1. Undelivered Orders

   Our testing of undelivered orders identified a projected overstatement of more than $5.7 million
   because some obligations could not be supported or were no longer needed.

   We recommend that BBG review obligations in a structured manner and on a regular basis to
   permit deobligation and reprogramming of unused amounts.

2. Government Purchase Cards

   Eight of the 20 cardholders sampled either had purchases with date errors or incomplete purchase
   logs or had dates that were not arranged chronologically in the purchase log.

   One cardholder’s individual statement of account was approved by an official who was neither
   the designated Authorizing Officer/Certifying Officer nor the alternate Authorizing
   Officer/Certifying Officer.

   One cardholder’s purchase log was not approved and signed by either the designated Authorizing
   Officer/Certifying Officer or the alternate Authorizing Officer/Certifying Officer.

   One cardholder’s purchase log and billing statement was not provided in a timely manner.

   Sufficient documentation to support billing statements was not provided in a timely manner for
   two cardholders.

   One cardholder exceeded the 30-day spending limit.

   In addition, BBG’s Worldwide “SmartPay” Purchase Card Program Guide needs to be revised.
   The guide references a former employee, and there were numerous references to the former
   financial management system.

   We recommend that BBG institute effective internal control and oversight procedures to deter
   and discover erroneous use of the government purchase card.

3. Grants Management

   Our review of Forms SF-272, Federal Cash Transaction Reports, for Radio Free Europe, the
   Middle East Broadcasting Network, and Radio Free Asia, disclosed instances of noncompliance
   with provisions of Office of Management and Budget (OMB) Circular A-110, Uniform
   Administrative Requirements for Grants and Agreements With Institutions of Higher Education,
                                                                                      Attachment 1
                                                                                        Page 2 of 3
   Hospitals, and Other Non-Profit Organizations. Specifically, the Circular states, “Cash
   advances . . . shall be limited to the minimum amounts needed and be timed to be in accordance
   with the actual, immediate cash requirements.” We noted that grantees maintained cash on hand
   sufficient to cover needs for from 1 month to more than 4 1/2 months of expenditures. We also
   noted an instance in which the SF-272 for one grantee was not submitted in a timely manner and
   in accordance with OMB Circular A-110.

   We recommend that BBG strengthen its policies and procedures regarding the oversight of
   grantees’ financial activity to ensure full compliance with OMB Circular A-110.

4. Information Security

   The annual Federal Information Security Management Act report submitted by the Office of
   Inspector General (OIG) stated that BBG had taken action to improve management controls but
   that further improvements were needed to address information system and information security
   program requirements.

   We recommend that BBG continue to allocate staff time and funding to bring the agency into full
   compliance, as directed by OIG.

5. Non-Personnel Expenses

   Our testing of non-personnel expenses identified a projected overstatement of approximately $15
   million that occurred because prior-year expenses had been recorded in the current year. Based
   on this information, BBG recorded a $5 million adjustment to correct a portion of the
   misstatement related to this internal control weakness.

   We recommend that BBG take steps to correctly record expenses in the proper period.

6. Accounts Receivable

   Our testing of accounts receivable revealed three instances in which qualifying debts (180 days
   old) were not referred to the Treasury Offset Program. As a result, BBG was not in compliance
   with the Debt Collection Improvement Act.

   We recommend that BBG take appropriate measures to ensure full compliance with the Debt
   Collection Improvement Act.
                                                                                      Attachment 1
                                                                                        Page 3 of 3


            Table 1: Follow-up of Observations From the FY 2008 Management Letter


    Observation                                                       FY 2009       FY 2009
                                 FY 2008 Observation
     Number                                                            Status       Comment

1. Property, Plant,   BBG had not recorded property acquisitions       Open     See audit report.
   and Equipment      and disposals in a timely manner.

                      In addition, the asset management system was
                      not integrated with the general ledger.


2. Undelivered        A significant number of obligations were not     Open     See observation 1.
   Orders             supported or were no longer needed.


3. Government         Cardholders were not correctly entering          Open     See observation 2.
   Purchase Cards     purchases in their purchase logs.

                      Proper approvals were not obtained for
                      purchase logs and/or cardholder individual       Open     See observation 2.
                      statement of accounts.


4. Grants             The grantees consistently maintained cash on     Open     See observation 3.
   Management         hand in excess of 1 week’s activities, as
                      permitted by Circular A-110. Specifically,
                      grantees maintained from 3 weeks to more
                      than 2 months of cash on hand.

                      We also noted an instance where the SF-272       Open     See observation 3.
                      for one grantee was not submitted in a timely
                      manner and in accordance with OMB Circular
                      A-110.


5. Information        The annual Federal Information Security          Open     See observation 4.
    Security          Management Act report stated that
                      BBG did not fully comply with some statutory
                      provisions and implementing regulations.



6. Payroll            Testing disclosed discrepancies in              Closed
   Compliance         contributions and withholdings and General
                      Schedule hourly rates.


7. Non-personnel      Prior-year expenses were recorded in the         Open     See observation 5.
   expenses           current year.
                                                                                                               Attachment 2
                                                                                                                 Page 1 of 4



                   BROADCASl1NG BOARD OF GOVERNORS
                          srATES OF AMERICA
                   UNITED SfATES


                                                                                 March 12, 2010
                                                                                       12,2010


            Harold W. Geisel
                        Geisel
            Deputy Inspector
                    Inspector General
            Office of Inspector General
            Department of State
            Washington D.C. 20522-0308


                 Mr. Geisel:
            Dear Mr.

            This is in response to your request for comments on the draft management letter related
            to the audit of the Broadcasting Board of Governors' 2009 and 2008 financial
                                                                                fmancial statements.
            We have reviewed the observations and conclusions of the independent contractor,
            Leonard G. Birnbaum and Company, LLP, and in the attachment provided detailed
            responses to each of the issues identified by the auditors.
                                                              auditors.

                         that we take the recommendations seriously and will monitor the progress
            I assure you that
            made to address each recommendation.

            Thank you for the opportunity to respond.
                                             respond.


            Sincerely,




            Maryjean Buhler
            Chief Financial Officer


            Attachment:




            cc:
            cc:     Leslie A. Leiper, Leonard G. Birnbaum and Company, LLP




330 iNDEPENDENCE AVI·:NUE. SW
    INDEPENDENCE AVENUE,        ROOM 3360   COHE
                                            COHENN BUIlDING
                                                   BUILDING   WASHINL"TON,
                                                              WASHINGTON, DC 202:i7
                                                                             20237    (202)   203-4545       (20'4 2034.
                                                                                                         FAX (202)     '568
                                                                                                                   2034568
                                                                                              Attachment 2
                                                                                                Page 2 of 4




                           Broadcasting Board of Governors
                            Audit of Financial Statements
                             September 30, 2009 and 2008

             BBG Responses to the Audit Observations
                                        Obsenations and Conclusions



1. Undelivered Orders

       Recommendation:
Audit Recommendation:
We recommend that BBG review obligations in a structured manner and on a regular
         peffilit deobligation and reprogramming of unused amounts.
basis to permit

BBG Response:
The office of the Chief Financial Officer (OCFO) perfonns
                                                    performs reviews of all open orders
and requests program offices to reconcile their open orders. The OCFO will begin
issuing a bimonthly open obligations report to Program Offices for veri    fication and
                                                                      verification
certification that the open obligations contained in the report are valid and should remain
open. Simultaneously, the OCFO will review these open obligations and work with each
Program Office to detennine
                     determine whether or not they can be deobligated.

2. Government Purcbase
              Purchase Cards

Audit Recommendation:
We recommend that BBG institute effective internal contro
                                                    controll and oversight procedures to
deter and discover erroneous use of the government purchase card.

BBG
BSG Response:
BBG requires all credit card statements, purchase logs, and receipts be submitted to the
Office of Financial Operations and reconciled on a monthly basis. The BBG Purchase
Card Manager will be reviewing the Purchase Logs, ensuring the appropriate Approving
Officials have signed them and support documents are in compliance with the guidance
contained in the "Smart Pay" Purchase Card Program Guide. The Program Guide is in
the process of being updated. Furthermore, training is scheduled for Approving Officials
and cardholders to ensure consistency in the program.

3. Grants Management

Audit Recommendation:
We recommend that BBG strengthen its policies and procedures regarding the oversight
of grantees' financial activity to ensure full compliance with OMS Circular A- II O.
                                                                            A-liD.

BBG Response:
SSG
The BBG is mindful that it is required by OMB Circular A-liD
                                                          A-IIO to minimize the time
elapsing between the transfer of funds to the grantee and disbursement by the grantee.
                                                                                            Attachment 2
                                                                                              Page 3 of 4




The BBG has established procedures to address this requirement and at the same time
ensure that each grantee has adequate resources for on-going operations. The BBG
makes monthly payments to each grantee based on a financial plan that reflects the
anticipated obligations and disbursements by month. Each grantee's SF-269, SF-272,
and Statement of Obligations and Disbursements are reviewed and compared with the
plan. The OCFO follows up as necessary with the grantees to address concerns related to
significant deviations between the actual obligations and disbursement and the plan. In
addition, the OCFO meets with each of the grantees on a quarterly basis to discuss
operations and financing needs and adjusts their financial plans accordingly.
                                                                 accordingly. Although a
grantee may appear to have excessive cash on hand, much of that reserve has been
obligated. We will review our policies and procedures to identify areas for potential
improvement, and will continue to work with the grantees to ensure full compliance with
OMB Circular A-I
               A- I 10.
                    IO.


4. Information Securitv

Audit Recommendation:
We recommend that BBG continue to allocate staff time and funding to bring the agency
into full compliance.
          compliance, as directed by OIG.
                                     OIG,

BBG Response:
The BBG continues to allocate staff time and funding to improve compliance with
FISMA provisions and implementing regulations
                                        regulations.. Although there were exceptions to
FISMA compliance with respect to the information systems operated by the agency.
                                                                              agency, the
financial management system, which is cross-serviced by the Department of the Interior,
is fully compliant with all statutory and regulatory requirements and has a current
Certification and Accreditation.

5. Non-Personnel Expenses

Audit Recommendation:
We recommend that BBG take steps to correctly record expenses in the proper period.

BBG Response:
The OCFO prepares an annual closing memorandum distributed to Program Offices
outlining deadlines for processing payments at the end of the fiscal ~ear. In this memo,
the OCFO requests that all invoices received prior to September 30 be submitted to the
Payments Office by close of business on the predetermined deadline date. The financial
reporting branch prepares an adjusting entry to the financial statements to enter the
expenses and related liability for those invoices which were not submitted in time for
processing in Momentum. In FY2009, the BBG recorded an adjustment of $5.4 million
for invoices that had not been paid by September 30th. The OCFO will continue to work
with Program Offices to ensure invoices are promptly submitted for processing and to
correctly record expenses in the proper period.
                                                                                             Attachment 2
                                                                                               Page 4 of 4




6. Accounts Receivable

Audit Recommendation:
      Recommendation:
We recommend that BBG take appropriate measures to ensure full compliance with the
     Collection
Debt Co llection Improvement Act.

BBG Response:
The Office of Financial Operations will review accounts receivable to ensure tha
                                                                               thatt debts
are appropriately referred to the Treasury Offset Program in order to be in full
compliance with the Debt Collection Improvement Act.
